Indirect Costs Charged by the Cooperative for
Assistance and Relief Everywhere, Inc. to USAID
Internal Transport, Storage and Handling
Awards
Report No. 0-000-01-011-F

August 31, 2001




                  Washington, D.C.
 U.S. AGENCY FOR
  INTERNATIONAL
   DEVELOPMENT

MEMORANDUM

FOR:            BHR/FFP, William T. Oliver, Director

FROM:           IG/A/FA, Alvin A. Brown, Director

SUBJECT:        Indirect Costs Charged by the Cooperative for Assistance and Relief
                Everywhere, Inc. to USAID Internal Transport, Storage and Handling
                Awards, Report Number 0-000-01-011-F

The attached report summarizes our review of the allocability of indirect costs
associated with USAID awards to the Cooperative for Assistance and Relief
Everywhere, Inc., (CARE USA) for the internal transport, storage and handling
(ITSH) of agricultural commodities. Our review was performed to respond to the
concerns of the Bureau for Humanitarian Response, Office of Food for Peace (FFP)
that CARE USA was charging indirect costs to its ITSH awards in violation of
regulations governing ITSH awards. Your comments are included in their entirety in
Appendix II.

This report contains recommendations that the Director, FFP should:

1.    Resolve the $62,096 of costs questioned in this report.

2.     Work with the USAID Office of Procurement to ensure that all future
     negotiated indirect cost rate agreements specifically state that indirect costs are
     not allocable to ITSH awards.

3. Inform officials from CARE USA that future audit costs associated with ITSH
    awards can only be charged in accordance with existing ITSH guidelines.

Based on your comments, the Office of Food for Peace concurs with the
recommendations made in this report. Please notify the Office of Management
Planning and Innovation (M/MPI) when final actions on these recommendations are
completed, and request closure.
We appreciate the courtesies extended to us during our review. Please contact us if
you wish to discuss these comments or if you have any other questions concerning
this report.

Attachment (as stated)

cc: M/OP/PS/OCC, Mr. Steven Tashjian
Table of
Contents
           Summary of Results                       4

           Background                               4

           Objectives                               4

           Findings                                 5

           Recommendations                          6

           Management Comments and Our Evaluation   7

           Appendix I - Scope and Methodology       8

           Appendix II – Management Comments        9




                                                        3
Summary of
Results      The Cooperative for Assistance and Relief Everywhe re, Inc. (CARE USA)
             charged indirect costs to internal transport, storage and handling (ITSH)
             awards from the U. S. Agency for International Development (USAID)
             from its fiscal year 1995 through its fiscal year 1998 in violation of ITSH
             award regulations. The charges were limited to an allocation of OMB
             Circular A-133 audit costs incurred by CARE USA, and represented only a
             portion of the overall negotiated indirect cost rate agreement between
             CARE USA and USAID. By receiving even a partial reimbursement of
             indirect costs related to ITSH grants, CARE USA was dismissive of ITSH
             program requirements issued by the Bureau for Humanitarian Response,
             Office of Food for Peace (FFP).




Background   CARE USA expended approximately $15 million in ITSH grants awarded by
             FFP, from its fiscal year 1995 through its fiscal year 1999. The USAID
             Office of Procurement approves the indirect cost rate for CARE USA.

             CARE USA receives an annual audit performed by a non-Federal auditor in
             accordance with OMB Circular A-133 that, among other things, assesses
             CARE USA’s system for ensuring that its expenditures of Federal awards are
             allowable and that its indirect costs are allocable. PricewaterhouseCoopers
             LLP performed an audit of CARE USA in accordance with OMB Circular
             A-133 for fiscal year 1999.

             During July 2000, FFP officials expressed concern to the Office of
             Inspector General that CARE USA had charged indirect costs to ITSH
             awards from USAID, in violation of ITSH program requirements issued
             by FFP.      FFP officials became aware of this situation through
             conversations with CARE USA program officials. As a result, an FFP
             program official sent an April 26, 1999, letter to CARE USA stating that
             USAID prohibits the allocation of indirect costs, including those for audit
             costs, to USAID ITSH awards.


Objectives   Our review addressed the following question:

             1. Did the Cooperative for Assistance and Relief Everywhere, Inc., charge
                indirect costs to its internal transport, storage and handling awards from
                USAID?

             We did not review statutes governing indirect costs over ITSH grants, or the
             determinations made by FFP concerning the allocability of such costs. We



                                                                                             4
                           instead relied on information from FFP indicating that indirect costs are not
                           included in ITSH line item budgets, leaving CARE USA with no basis for
                           charging such costs.



Findings                   1. Did the Cooperative for Assistance and Relief Everywhere, Inc.,
                              charge indirect costs to its internal transport, storage and handling
                              awards from USAID?

                               From 1995 through 1998, CARE USA claimed and charged indirect
                               costs to its ITSH awards from USAID. The charges were limited to an
                               allocation of OMB Circular A-133 audit costs incurred by CARE USA,
                               and represented a portion of the indirect costs identified in the overall
                               negotiated indirect cost rate agreements between CARE USA and
                               USAID. The total amount of CARE USA’s grant awards and indirect
                               costs for its fiscal years 1995 through 1998 are set forth in the table
                               below:

                                                              A-133 Indirect            Total Indirect
                                            Total ITSH        Rate Charged to           Costs Charged
                                            Awards            ITSH Awards               to ITSH Awards
                               1995*        $1,998,857               .700%              $ 13,992
                               1996*        $2,593,761               .700%              $ 18,156
                               1997         $2,993,765               .499%              $ 14,939
                               1998         $3,213,904               .467%              $ 15,009
                               1999         $4,170,433               0%                 $       0
                                                                                        $ 62,096

                               FFP officials have informed us that indirect costs are not allocable to
                               ITSH awards. The grant budgets prepared for CARE USA by FFP
                               support this position by not including indirect costs as a percentage
                               associated with ITSH awards in the absence of a country-specific
                               indirect cost rate. Because CARE USA did not request or receive an
                               approved country-specific indirect cost rate for ITSH awards, no basis
                               exists for charging indirect costs to ITSH awards. We are therefore
                               questioning the allocability of $62,096 of indirect costs charged to
                               USAID by CARE USA, as identified in the previous schedule. OMB
                               Circular A-133 audit costs may be authorized on a particular ITSH
                               grant if identified prior to award as a direct cost to that award.

 * Because ITSH costs were not identified separately in the CARE USA schedule of calculation of indirect cost
 recovery rate for its fiscal years 1995 and 1996, we calculated an estimate of ITSH expenditures based on a
 comparison of total direct expenditures of USAID awards to CARE USA in future years.




                                                                                                                5
Indirect costs were charged to USAID by CARE USA because the most
recent negotiated indirect cost rate agreement between USAID and
CARE USA did not state that indirect costs could not be charged to
ITSH awards. FFP officials did not know that CARE USA had
charged indirect costs to ITSH awards until they obtained information,
through documented and undocumented conversations, that CARE
USA had been charging a portion of the negotiated indirect cost rate to
its ITSH awards. These conversations prompted the Chief of the
Program Operations Division of FFP to issue the April 26, 1999 letter
to CARE USA referred to in the background section of this report.

We are making the following recommendations regarding issues at the
Cooperative for Assistance and Relief Everywhere, Inc.

       Recommendation No. 1: We recommend that the Director,
       Food for Peace resolve the $62,096 of costs questioned in this
       report.

       Recommendation No. 2: We recommend that the Director,
       Food for Peace work with the USAID Office of Procurement
       to ensure that all future Negotiated Indirect Cost Rate
       Agreements specifically state that indirect costs are not
       allocable to internal transport, storage and handling
       awards.

       Recommendation No. 3: We recommend that the Director,
       Food for Peace inform officials from the Cooperative for
       Assistance and Relief Everywhere, Inc., that future audit costs
       associated with the internal transport, storage and handling
       awards can only be charged in accordance with existing
       internal transport, storage and handling guidelines.

       Management Response: Food for Peace management concurs
       with each of our recommendations.




                                                                        6
Management       BHR/FFP concurred with our recommendations, and offered several
Comments and     informative observations regarding issues discussed in our report. We have
Our Evaluation   included these comments in their entirety in Appendix II.

                 Upon completion of final actions taken to implement the recommendations
                 identified in the report, BHR/FFP should advise the Office of Management
                 Planning and Innovation and request closure.




                                                                                            7
                                                                              Appendix I



Scope and     Scope
Methodology
              This review assesses the allocability of indirect costs associated with ITSH
              grants awarded by USAID to CARE USA for the fiscal years 1995 through
              1999 of CARE USA. The review was not performed in accordance with
              generally accepted auditing standards and we did not perform a review of
              significant management controls at FFP or CARE USA. The review was
              performed to address a specific concern of the Office of Food for Peace
              related to indirect costs charged by CARE USA. The procedures we used
              were explained to FFP officials prior to performance. These procedures
              included the performance of a quality control review of the fiscal year 1999
              audit of CARE USA, and an estimation of indirect costs charged to USAID
              by CARE USA during prior years.

              Methodology

              From October 2000 through February 2001, we made inquiries of CARE
              USA and USAID officials, performed analyses of indirect cost rate
              agreements between USAID and CARE USA, and reviewed quarterly
              financial status reports submitted by CARE USA, to determine whether
              CARE USA has been receiving reimbursement for indirect costs associated
              with ITSH awards from USAID. We relied on FFP officials in identifying
              ITSH awards for the period under review.




                                                                                         8
                                                                            Appendix II


Management
Comments


             MEMORANDUM                                           April 16, 2001

             For:           OIG/A/FA, Alvin A, Brown
             From:          BHR/FFP, William T. Oliver, Director

             Subject:       Review of Indirect Costs Charged by C.A.R.E. USA to
                            USAID ITSH Awards, Report No. 0-000-01-011-F

             We concur in all three recommendations contained in the audit report. We
             appreciate the efforts of the IG/A team in conducting this review and
             helping to ensure compliance with applicable food aid regulations. We
             have a few specific comments on various sections of the report.

             AUDIT FINDINGS

             The second sentence in the second paragraph should read… “by not
             including indirect costs as a percent associated with ITSH awards in the
             absence of any country-specific indirect cost rate. Because CARE USA
             did not request or receive an approved country-specific indirect cost rate
             for ITSH awards…” At the end of this paragraph, add the sentence: “A-133
             audit costs may be authorized on a particular ITSH grant if identified prior
             to award as a direct cost to that award.”

             AUDIT RECOMMENDATIONS NOS. 1 THROUGH 3
             We concur in the recommendations




                                                                                        9
